HHS/OIG-Audit-"Review of Clinical Laboratory Services-New Hampshire MedicaidProgram"(A-01-95-00005)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Clinical Laboratory Services - New Hampshire Medicaid Program" (A-01-95-00005)
January 18, 1996
Complete
Text of Report is available in PDF format (1.2 kb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This report presents the results of our review of the New Hampshire Office of Medical Services' (State Agency's) reimbursements
for clinical laboratory services under the Medicaid program. The objective of our review was to determine the adequacy
of procedures and controls over the processing of Medicaid payments to providers for clinical laboratory services. Our
review was limited to clinical laboratory services involving chemistry and hematology tests.
Our review disclosed that the State agency did not have adequate procedures or controls to ensure that reimbursements
for clinical laboratory tests under Medicaid did not exceed amounts recognized by the Medicare program, as required by
Section 6300 of the State Medicaid Manual. In this regard, Medicare regulations provide that claims for laboratory services
in which a provider bills separately for tests that are available as part of an automated multichannel chemistry panel,
should be paid at the lesser amount for the panel. Specifically, we found that providers received excess reimbursements
for automated multichannel chemistry panel tests that should have been grouped together (bundled into a panel) for payment
at a lower panel rate. In addition, the State agency did not have any procedures or controls to detect and prevent payment
of chemistry and hematology tests claimed more than once.
We statistically selected 100 instances involving claims with potential payment errors from a sample population of January
1993 through June 1994 paid claims valued at $339,388. We found that 99 of the 100 sampled instances were overpaid. Projecting
the results of our statistical sample over the population using standard statistical methods, we estimate that the State
agency overpaid providers $160,485 (Federal share $80,243) for chemistry and hematology tests over the 18 month audit period.
We recommend that the State agency (1) establish controls to identify unbundled or duplicate charges for laboratory tests,
(2) update its provider billing instructions to reflect Medicare bundling requirements, (3) consider obtaining recoveries
from providers with a large number of payment errors, and (4) make adjustments for the Federal share of amounts recovered
by the State agency on its Quarterly Report of Expenditures to the Health Care Financing Administration.
The State agency concurred that overpayments to laboratory service providers had occurred for certain procedures and agreed
to take corrective action in response to our recommendations. In this regard, the State agency indicated that the scope
of its review would cover a 24 month period beginning January 1994 to be consistent with its routine review procedures
for focused reviews.
Since the scope of our audit identified overpayments during calendar year 1993, we believe that the State agency should
also consider the cost benefits of recovering the overpayments made in 1993 in its review of selected providers. We intend
to provide the State agency with a file that will aid them in this effort.